SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
VSEITZ@SID LEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20Antonio Dewayne Hooks,
v.

Petitioner

Kayodi Atoki, Bethany Police Department, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Virginia A. Seitz, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 6,424 words,
excluding the parts of the document that are excluded by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 3, 2021.

/s/ Virginia A. Seitz
VIRGINIA A. SEITZ
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

